Case: 20-1733

Document: 24

Page: 1

Filed: 10/07/2020

NOTE: This disposition is nonprecedential.

®ntteb States Court of Appeals*
for tfje jfeberal Circuit
DAVID O. KEEL,
Claimant-Appellant
v.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS,
Respondent-Appellee
2020-1733
Appeal from the United States Court of Appeals for
Veterans Claims in No. 18-3786, Judge Joseph L. Toth.
Decided: October 7, 2020
David O. Keel, Hualapai, AZ, pro se.
JOSHUA E. Kurland, Commercial Litigation Branch,
Civil Division, United States Department of Justice, Wash­
ington, DC, for respondent-appellee. Also represented by
Jeffrey B. Clark, Martin F. Hockey, Jr., Robert
Edward Kirschman, Jr.
Before Dyk, MOORE, and TARANTO, Circuit Judges.

Case: 20-1733

Document: 24

Page: 2

2

Filed: 10/07/2020

KEEL v. WILKIE

Per Curiam.
David Keel appeals the decision of the United States
Court of Appeals for Veterans Claims (“Veterans Court”)
that dismissed in part and vacated and remanded in part
an appeal from the Board of Veterans’ Appeals (“Board”).
We affirm the Veterans Court’s dismissal of the appeal
from the Board’s remand decision. We dismiss Mr. Keel’s
appeal of the Veterans Court’s order vacating and remand­
ing for lack of jurisdiction.

Background
Mr. Keel served in the Army from May to December
1980. Since 1981, Mr. Keel has repeatedly sought disabil­
ity benefits from the Department of Veterans Affairs
(“VA”), and his requests have been repeatedly rejected.
In 2011, Mr. Keel filed a claim for benefits, seeking (1)
to reopen previously denied claims for service connection
for bilateral hip disorder, ischemic heart disease, gas­
troesophageal reflux disease (“GERD”), and low back dis­
order, and (2) benefits based on various other new
conditions. His claims were denied by the VA regional of­
fice (“RO”).
Mr. Keel appealed to the Board. As part of Mr. Keel’s
appeal, he participated in a Board hearing in October 2017,
held by video conference. According to Mr. Keel, the tran­
script he received of the hearing was unreadable, omitted
testimony, and “ran together” text. He also claimed that,
at the hearing, his representative from Disabled American
Veterans, a veterans service organization, improperly tes­
tified against him. App’x 3.1
In a July 2018 order, the Board denied Mr. Keel’s re­
quest to reopen service connection claims for a bilateral hip

1 “App’x” refers to the appendix attached to the gov­
ernment’s response brief.

Case: 20-1733

KEEL v. WILKIE

Document: 24

Page: 3

Filed: 10/07/2020

3

disorder, ischemic heart disease, and GERD. The Board
granted Mr. Keel’s request to reopen a claim for service
connection for a low back disorder and remanded that
claim and the three other new claims for further record de­
velopment.
Mr. Keel appealed the Board’s order to the Veterans
Court. First, Mr. Keel raised perceived errors with the
transcript of the October 2017 Board hearing. The Secre­
tary conceded error in that there was no evidence that
Mr. Keel had been advised of his right to review the hear­
ing transcript and seek correction of any perceived errors,
and the Secretary requested the Veterans Court to remand
so that Mr. Keel could seek correction of any transcript er­
rors from the Board. The Veterans Court accepted the Sec­
retary’s concession of error, vacated the Board’s decision,
and remanded “to allow Mr. Keel to submit a request for
correction of any perceived errors in the transcript of the
October 2017 Board hearing” in accordance with the
Board’s procedural rules. App’x 4.
Second, Mr. Keel argued that the conduct of a repre­
sentative from Disabled American Veterans at the October
2017 Board hearing had been improper. “Mr. Keel assert[ed] that the representative ‘testified against’ him and
otherwise took actions on his behalf with which he disa­
greed.” Id. (internal citation and punctuation omitted); see
also Reply Br. 4. The Veterans Court rejected his argu­
ment, finding that, “[e]ven assuming for present purposes
that Mr. Keel’s assertions are accurate, a representative
from a veterans service organization is not a VA employee
over whom the Secretary has authority or a legal practi­
tioner over whom the Court has oversight.” App’x 4-5.
Third, Mr. Keel appealed the portion of the Board’s or­
der that remanded the low back service-connection claim
and three other issues to the RO. The Veterans Court
found that it did not have jurisdiction over the Board’s re­
mand because it was not a final Board decision.

Case: 20-1733

Document: 24

Page: 4

4

Filed: 10/07/2020

KEEL v. WILKIE

Mr. Keel appeals.

Discussion
Mr. Keel on appeal seeks review of the Veterans
Court’s remand order and the Board’s remand order.
I
We first conclude that we have no jurisdiction to review
the Veterans Court’s decision remanding claims to the
Board. “[W]e generally do not review the Veterans Court’s
remand orders because they are not final decisions.” Ebel
v. Shinseki, 673 F.3d 1337, 1340 (Fed. Cir. 2012). “Such a
finality requirement is based on prudential considera­
tions.” Williams v. Principi, 275 F.3d 1361, 1363 (Fed. Cir.
2002). We will depart from this strict rule of finality when
three conditions (“the Williams conditions”) are met:
(1) [T]here must have been a clear and final deci­
sion of a legal issue that (a) is separate from the
remand proceedings, (b) will directly govern the re­
mand proceedings or, (c) if reversed by this court,
would render the remand proceedings unneces­
sary; (2) the resolution of the legal issues must ad­
versely affect the party seeking review; and,
(3) there must be a substantial risk that the deci­
sion would not survive a remand, i.e., that the re­
mand proceeding may moot the issue.
Id. at 1364 (footnotes omitted).
The Veterans Court’s remand order regarding the tran­
script does not meet these conditions. There has been no
showing that any legal ruling would be mooted by the re­
mand. Because Mr. Keel’s appeal of the Veterans Court’s
order to remand does not meet the Williams conditions, we
dismiss it for lack of jurisdiction.

Case: 20-1733

Document: 24

Page: 5

Filed: 10/07/2020

5

KEEL v. WILKIE

II
Mr. Keel also appeals the Veterans Court’s rejection of
his complaints regarding the representative from Disabled
Veterans of America’s conduct during the October 2017
board hearing. That issue concerns the claims that have
been remanded to the Board and as to which there is no
final decision. While we are uncertain that the asserted
conduct of the representative would not be proper grounds
for an appeal to the Veterans Court, this issue can be raised
again before the Veterans Court on appeal of a new deci­
sion by the Board as to those claims and then, if necessary,
to this court.
Ill
Finally, we affirm the Veterans Court’s judgment that
it lacked jurisdiction over the low back service-connection
claim and other issues that the Board remanded to the RO.
Although we lack jurisdiction to review the Veterans
Court’s remand order regarding the hearing transcript,
that does not deprive us of jurisdiction to consider other
claims on appeal that are separate from the remanded
claims. “This court has consistently recognized that the
various claims of a veteran’s overall ‘case’ may be treated
as distinct for jurisdictional purposes.” Elkins v. Gober,
229 F.3d 1369, 1374 (Fed. Cir. 2000). Here, the claims for
low back service connection and the three other issues re­
manded by the Board to the RO are distinct from the claims
for service connection for bilateral hip disorder, ischemic
heart disease, and GERD, which the Veterans Court re­
manded to the Board in connection with the hearing tran­
script.
We review the Veterans Court’s determination of its
own jurisdiction de novo. Maggitt v. West, 202 F.3d 1370,
1374 (Fed. Cir. 2000). The Veterans Court “shall have ex­
clusive jurisdiction to review decisions of the Board of Vet­
erans’ Appeals.” 38 U.S.C. § 7252. “Our case law and [38
U.S.C § 7104(d)(3)] define a Board decision as including an

Case: 20-1733

Document: 24

6

Page: 6

Filed: 10/07/2020

KEEL v. WILKIE

order granting appropriate relief or denying relief.” Kirk­
patrick u. Nicholson, 417 F.3d 1361, 1364 (Fed. Cir. 2005)
(Board’s remand “for additional medical examinations”
was not a “decision” because it did not grant or deny relief).
Here, the Board’s remand for further record development
did not grant or deny relief. Thus, the Board’s remand did
not constitute a decision within the Veterans Court’s juris­
diction.
AFFIRMED IN PART, DISMISSED IN PART
Costs
No costs.

Case: 20-1733

Document: 25

Page: 1

Filed: 10/07/2020

tHmtetr States Court of Appeals:
for tfje Jfeberal Circuit
DAVID O. KEEL,
Claimant-Appellant
v.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS,
Respondent-Appellee
2020-1733
Appeal from the United States Court of Appeals for
Veterans Claims in No. 18-3786, Judge Joseph L. Toth.

JUDGMENT

THIS Cause having been considered, it is
Ordered and Adjudged:
AFFIRMED IN PART, DISMISSED IN PART
Entered By Order Of The Court
October 7. 2020

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Designatedfor electronic publication only
UNITED STATES COURT OF APPEALS FOR VETERANS CLAIMS
No. 18-3786
David O. Keel, Appellant,
v.
Robert L. Wilkie,
Secretary of Veterans Affairs, Appellee.
Before TOTH, Judge.
MEMORANDUM DECISION
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
TOTH, Judge: In a July 2018 decision, the Board found new and material evidence had not
been submitted and therefore declined veteran David O. Keel's request to reopen serviceconnection claims for a bilateral hip disorder, ischemic heart disease, and gastroesophageal reflux
disease (GERD). (The Board reopened a service-connection claim for a low back disability and
remanded that claim, along with three other issues. As remands are not final Board decisions, the
Court has no jurisdiction over those matters. See Martinez v. Wilkie, 31 Vet.App. 170, 173 n.2
(2019).) Mr. Keel appeals and is self-represented.
His handwritten informal briefs are not easy to follow. But one thing with which he clearly
takes issue concerns the October 2017 Board hearing. The hearing was held via videoconference
with the Board member in Washington, D.C., and the veteran in Phoenix, Arizona; a representative
from Disabled American Veterans also participated. Per Mr. Keel, the hearing transcript contained
in the record before the agency—which he received on a digital disc in September 2018—was
unreadable, omitted testimony, and "ran together" text. Informal Br. at 1. In fact, he raised these
allegations when the record before the agency was first served on him. This prompted the Secretary
to move unilaterally for remand so that the veteran could seek correction of any transcript errors
from the Board. But Mr. Keel opposed the motion, believing it would require him to start the

claims process from scratch. In April 2019, the Court denied the Secretary's motion without
prejudice and advised that he could reassert his arguments, if appropriate, during briefing.
Because Mr. Keel's opening brief again raised the transcript issue, the Secretary again
concedes error and urges the Court to remand. The Secretary relies on Rule 714 of the rules
governing Board hearings, which provides:
If an appellant wishes to seek correction of perceived errors in a hearing transcript,
the appellant or his or her representative should move for correction of the hearing
transcript within 30 days after the date that the transcript is mailed to the appellant.
The motion must be in writing and must specify the error, or errors, in the transcript
and the correct wording to be substituted. The motion must be filed with the Board
of Veterans' Appeals, P.O. Box 27063, Washington, DC 20038. The ruling on the
motion will be made by the presiding Member of the hearing.
38 C.F.R. § 20.714 (2019).1 The Secretary contends there is no evidence that Mr. Keel was advised
of his right to review the hearing transcript and seek correction of any perceived errors or of the
timeframe in which he needed to exercise that right. Indeed, the Secretary observes, there is no
indication that the veteran was even sent a copy of the hearing transcript prior to his receipt of the
record before the agency in September 2018. The Secretary maintains, therefore, that remand is
necessary to provide Mr. Keel the opportunity to exercise his procedural rights before the Board.
Mr. Keel's informal reply brief does not clearly indicate his position on the Secretary's
proposal to remand, but it still maintains that the Board hearing transcript is incomplete or
otherwise defective. In these circumstances, the Court accepts the Secretary's concession of error,
vacates the Board decision, and remands the matter to allow Mr. Keel to submit a request for
correction of any perceived errors in the transcript of the October 2017 Board hearing in
accordance with the procedures specified in Rule 714.
The only other obvious complaint in the veteran's briefs relates to the conduct during the
Board hearing of his Disabled American Veterans representative. Mr. Keel asserts that the
representative "testified against" him, Informal Br. at 1, and otherwise took actions on his behalf
with which he disagreed. Even assuming for present purposes that Mr. Keel's assertions are
accurate, a representative from a veterans service organization is not a VA employee over whom

1 The Secretary cites this provision as Rule 716, but it was redesignated as Rule 714, effective February 19,
2019. SeeVA Claims and Appeals Modernization, 84 Fed. Reg. 138, 188 (Jan. 18,2019).

2

the Secretary has authority or a legal practitioner over whom the Court has oversight. So, any
complaints Mr. Keel may have regarding his representative are outside the scope of this appeal.2
The Court VACATES the portions of the July 9, 2018, Board decision relating to hip,
cardiac, and GERD claims and REMANDS those matters for further proceedings consistent with
this opinion.
DATED: February 28, 2020
Copies to:
David O. Keel
VA General Counsel (027)

2 The Court has tried to discern whether there are any other meritorious arguments in the remainder of Mr.
Keel's briefs but has been unable to do so.

3

